FEDERAL PRISON INDUSTRIES, INC.

 ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2010

         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


            Audit Report 11-05

             December 2010

           FEDERAL PRISON INDUSTRIES, INC.

            ANNUAL FINANCIAL STATEMENTS

                  FISCAL YEAR 2010


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the
Federal Prison Industries, Inc. (FPI) for the fiscal years (FY) ended
September 30, 2010, and September 30, 2009. Under the direction of the
Office of the Inspector General (OIG), Cotton & Company LLP performed the
FPI’s audit in accordance with U.S. generally accepted government auditing
standards. The audit resulted in an unqualified opinion on the FY 2010
financial statements. An unqualified opinion means that the financial
statements present fairly, in all material respects, the financial position and
the results of the entity’s operations in conformity with U.S. generally
accepted accounting principles. The FY 2009 financial statements audit was
performed by KPMG LLP and also resulted in an unqualified opinion (OIG
Report No. 10-07).

       Cotton & Company LLP also issued reports on internal control and on
compliance and other matters. For FY 2010, the Independent Auditors’
Report on Internal Control over Financial Reporting did not identify any
significant deficiencies. In the FY 2010 Independent Auditors’ Report on
Compliance and Other Matters, the auditors identified no instances of
non-compliance with applicable laws and regulations.

      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the FPI’s financial
statements, conclusions about the effectiveness of internal control,
conclusions on whether the FPI’s financial management systems
substantially complied with the Federal Financial Management Improvement
Act of 1996, or conclusions on compliance with laws and regulations. Cotton
& Company LLP is responsible for the attached auditors’ reports dated
November 1, 2010, and the conclusions expressed in the reports. However,
our review disclosed no instances where Cotton & Company LLP did not
comply, in all material respects, with U.S. generally accepted government
auditing standards.
